USCA11 Case: 19-11131

Date
(1 ofFiled:
23) 04/30/2021

Page: 1 of 22

[PUBLISH]

APP 1a

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-11131
________________________
D.C. Docket No. 3:17-cr-00444-WKW-WC-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
GUILLERMO GONZALEZ-ZEA,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Middle District of Alabama
________________________
(April 30, 2021)
Before NEWSOM and BRANCH, Circuit Judges, and RAY,* District Judge.
BRANCH, Circuit Judge:

*

Honorable William M. Ray, II, United States District Judge for the Northern District of
Georgia, sitting by designation.

USCA11 Case: 19-11131

Date
(2 ofFiled:
23) 04/30/2021

Page: 2 of 22

Immigration and Customs Enforcement (“ICE”) agents in the process of
staking out a residence in search of an ICE fugitive, whose social security number
had been linked to a utility account at the address in question, stopped a car leaving
the residence in the early morning hours of September 26, 2017. Guillermo
Gonzalez-Zea was driving that car. ICE agents asked Gonzalez-Zea for his name
and requested identification. Gonzalez-Zea produced an ID card issued in Mexico
and admitted that he did not have any identification issued by the United States
because he was here illegally. The officers explained that they were looking for an
ICE fugitive, and Gonzalez-Zea stated that he lived alone, but he gave the officers
permission to search his house. During the search of the residence, the officers
discovered multiple firearms in plain view and arrested Gonzalez-Zea for
possession of a firearm and live ammunition by an illegal alien in violation of 18
U.S.C. §§ 922(g)(5) and 924(a)(2). Gonzalez-Zea moved to suppress the evidence,
and the district court denied his motion.
On appeal, Gonzalez-Zea argues that the district court should have granted
his motion to suppress because: (1) the ICE officers did not have the requisite
individualized reasonable suspicion to stop him; (2) the ICE officers unlawfully
prolonged the stop; and (3) Gonzalez-Zea’s consent to search his home was
involuntary. After careful review and with the benefit of oral argument, we affirm.

2

USCA11 Case: 19-11131

I.

Date
(3 ofFiled:
23) 04/30/2021

Page: 3 of 22

Background

Between 5:00 and 6:00 a.m. on September 26, 2017, three ICE officers,
Purdy, Skillern, and Hinkle, staked out a house in Heflin, Alabama (the “Heflin
house”). The officers sought to apprehend Jose Rodolfo Alfaro-Aguilar, a
Honduran national and an ICE fugitive with a warrant for his deportation. 2 ICE
agents believed Alfaro-Aguilar might be at the Heflin house because a few months
earlier a social security number associated with Alfaro-Aguilar had been used to
connect a utility service at the Heflin house—although there was no evidence that
the utility was connected in Alfaro-Aguilar’s name. The ICE investigation also
revealed that the same social security number was associated with another
individual by the name of Jose Sanchez who had 26 aliases and who was
associated with 15 possible addresses, with the Heflin address being the most
recent location.3
During the stakeout, all three ICE officers wore ICE badges and bulletproof
vests with ICE printed on the front and the back and carried holstered firearms.

2

Alfaro-Aguilar did not appear at his scheduled June 2016 immigration hearing, but his
counsel indicated that Alfaro-Aguilar had departed the United States. Following that hearing,
the immigration judge issued an order of removal for Alfaro-Aguilar. Approximately a year
later, the ICE officers received the lead in this case that the social security number used by
Alfaro-Aguilar was used to connect a utility service at the Heflin house.
3

Although Gonzalez-Zea argues that the social security number was associated with “26
other individuals,” that contention is undermined by the record. The record confirms that the
social security number was associated with two individuals—the fugitive Alfaro-Aguilar and
Jose Sanchez. While Jose Sanchez had 26 documented aliases, he counts as only one individual.
3

USCA11 Case: 19-11131

Date
(4 ofFiled:
23) 04/30/2021

Page: 4 of 22

Sometime before dawn, Officer Purdy saw a man leave the house, get into a car,
and leave the residence. Unable to tell whether the driver was the fugitive AlfaroAguilar, Officer Skillern activated his lights and siren and pulled the car over to
ascertain whether the driver was the fugitive, while another officer continued to
surveil the residence.
The driver, Gonzalez-Zea, pulled over promptly. Officer Skillern asked
Gonzalez-Zea for his name, which Skillern recognized “didn’t match the person
[they] were looking for.” Officer Skillern asked Gonzalez-Zea for identification to
confirm his identity, and Gonzalez-Zea gave him an identification card issued by
Mexico. Officer Skillern asked Gonzalez-Zea if he had any other forms of
identification, and Gonzalez-Zea said that he did not. When Officer Skillern asked
“why he wasn’t able to have an Alabama driver’s license or any other United
States issued ID,” Gonzalez-Zea stated that he was in the country illegally. This
colloquy occurred about a minute into the encounter.
At that point, Officer Skillern was “pretty positive” that Gonzalez-Zea was
not the fugitive he was looking for, and he explained to Gonzalez-Zea that the
officers were seeking a fugitive and asked whether anyone else lived in the house.
Gonzalez-Zea stated that he lived there alone, but he granted the officers
permission to go inside and “take a look” around. According to Officer Skillern,
Gonzalez-Zea “didn’t have any objection at all” when asked for his consent and

4

USCA11 Case: 19-11131

Date
(5 ofFiled:
23) 04/30/2021

Page: 5 of 22

their conversation was “friendly” and “cordial.” The record confirms that none of
the officers drew their weapons during their encounter with Gonzalez-Zea, he was
not patted down or searched, and he was not handcuffed. The officers did not read
him his Miranda rights at this time, or tell him that he had a right to refuse to
consent, or that he was free to go.
Gonzalez-Zea drove his own car back to the house, and the officers followed
in their cars. Gonzalez-Zea unlocked the door to the house and entered the house
with the officers. As the officers walked around, they asked Gonzalez-Zea
questions about his living arrangements—whether anyone else lived there with
him, how many rooms there were, and which room was his. Once the officers
entered Gonzalez-Zea’s bedroom, they saw two guns in plain view: a shotgun in
the corner and a rifle in an open closet. Officer Hinkle then read Gonzalez-Zea his
Miranda rights. After being read his rights, Gonzalez-Zea indicated he was willing
to answer the officers’ questions, and when asked if there were other weapons in
the home, he showed officers where another firearm was located in a drawer.

5

USCA11 Case: 19-11131

Date
(6 ofFiled:
23) 04/30/2021

Page: 6 of 22

Gonzalez-Zea was charged with one count of possession of a firearm and
live ammunition by an illegal alien under 18 U.S.C. §§ 922(g)(5) 4 and 924(a)(2). 5
He moved to suppress the evidence, alleging that it was recovered after “an
unlawful traffic stop and unreasonable detention” and that his consent to search
was not voluntary. After an evidentiary hearing, the magistrate judge issued a
Report and Recommendation (“R&R”) recommending that the district court deny
the motion to suppress. The district court adopted the R&R over Gonzalez-Zea’s
objections.
The district court found that the officers had reasonable suspicion to “believe
the man they saw leaving the house [Gonzalez-Zea]. . . was the fugitive” they were
seeking. Thus, “[t]hey were therefore permitted to stop and identify him.” The
district court also found that the officers did not unreasonably extend the stop
because they did not “detour from their search for [the fugitive],” and all their
questions related to whether Gonzalez-Zea was the fugitive or whether the fugitive
lived in the house. Finally, the district court found that, based on the totality of the

4

Section 922(g) provides in relevant part that: “It shall be unlawful[] for any person . . .
who, being an alien . . . is illegally or unlawfully in the United States . . . to possess in or
affecting commerce, any firearm or ammunition; or to receive any firearm or ammunition which
has been shipped or transported in interstate or foreign commerce.” 18 U.S.C. § 922(g)(5)(A).
5

Section 924(a)(2) provides that “[w]hoever knowingly violates [18 U.SC. § 922(g)]
shall be fined as provided in this title, imprisoned not more than 10 years, or both.”
6

USCA11 Case: 19-11131

Date
(7 ofFiled:
23) 04/30/2021

Page: 7 of 22

circumstances, Gonzalez-Zea’s consent to search the house was voluntary.
Gonzalez-Zea appealed.
II.

Standard of Review

“Because rulings on motions to suppress involve mixed questions of fact and
law, we review the district court’s factual findings for clear error and its
application of the law to the facts de novo.” United States v. Jordan, 635 F.3d
1181, 1185 (11th Cir. 2011) (quotation omitted). We construe the facts in the light
most favorable to the party that prevailed below, here, the government. United
States v. Gordon, 231 F.3d 750, 754 (11th Cir. 2000).
III.
A.

Discussion

Whether the officers had reasonable suspicion to stop Gonzalez-Zea
Gonzalez-Zea argues that the officers did not have the requisite

individualized, reasonable suspicion necessary to conduct an investigatory stop.
Specifically, he argues that he did not commit any traffic violation, and the
officers’ decision to stop any vehicle that left the residence under surveillance to
determine if the driver was the fugitive that they were searching for is not the sort
of particularized, reasonable suspicion required by the Fourth Amendment.
The Fourth Amendment prohibits “unreasonable searches and seizures.”
U.S. Const. amend. IV. “Evidence obtained in violation of the Fourth Amendment
must be suppressed.” Jordan, 635 F.3d at 1185. Whether a search or seizure is

7

USCA11 Case: 19-11131

Date
(8 ofFiled:
23) 04/30/2021

Page: 8 of 22

reasonable “depends upon all of the circumstances surrounding the search or
seizure and the nature of the search or seizure itself.” United States v. Montoya de
Hernandez, 473 U.S. 531, 537 (1985).
The Fourth Amendment does not prohibit a police officer, “in appropriate
circumstances and in an appropriate manner [from] approach[ing] a person for
purposes of investigating possibly criminal behavior even though there is no
probable cause to make an arrest”—these brief investigative detentions are
commonly referred to as “Terry stop[s].” See Terry v. Ohio, 392 U.S. 1, 22 (1968).
Terry and its progeny allow an officer to, “consistent with the Fourth Amendment,
conduct a brief, investigatory stop when the officer has a reasonable, articulable
suspicion that criminal activity is afoot.” Illinois v. Wardlow, 528 U.S. 119, 123
(2000). Such investigatory stops are also authorized based on a reasonable
suspicion of past criminal activity, including where an officer has “a reasonable
suspicion, grounded in specific and articulable facts, that a person [the officer]
encounter[s] was involved in or is wanted in connection with [another crime].”
United States v. Hensley, 469 U.S. 221, 229 (1985) (upholding a brief Terry stop of
a person believed to be the individual on a police-issued wanted flyer “to check
identification, . . . to pose questions to the person, or to detain the person briefly
while attempting to obtain further information”); United States v. Kapperman, 764
F.2d 786, 792 (11th Cir. 1985) (holding that a Terry stop of a vehicle was

8

USCA11 Case: 19-11131

Date
(9 ofFiled:
23) 04/30/2021

Page: 9 of 22

supported by reasonable suspicion where officers had an objective reason to
believe that there may have been a fugitive inside the vehicle).
In Terry, the Supreme Court adopted “a dual inquiry for evaluating the
reasonableness of an investigative stop.” United States v. Sharpe, 470 U.S. 675,
682 (1985) (citing Terry, 392 U.S. at 20). Under Terry’s two-part inquiry, we first
examine “whether the officer’s action was justified at its inception,” which turns
on whether the officers had a reasonable suspicion that the defendant had engaged
in, was engaging in, or was about to engage in, a crime. Terry, 392 U.S. at 20. In
the second part of the inquiry, we consider “whether [the stop] was reasonably
related in scope to the circumstances which justified the interference in the first
place.” Id.; see also Jordan 635 F.3d at 1186.
Reasonable suspicion “is not concerned with ‘hard certainties, but with
probabilities.’” United States v. Lewis, 674 F.3d 1298, 1304 (11th Cir. 2012)
(quoting United States v. Cortez, 449 U.S. 411, 418 (1981)). To show that an
officer has reasonable suspicion, the officer “must be able to articulate more than
an ‘inchoate and unparticularized suspicion or “hunch” of criminal activity.’”
Wardlow, 528 U.S. at 123 (quoting Terry, 392 U.S. at 27). “While reasonable
suspicion is a less demanding standard than probable cause and requires a showing
considerably less than preponderance of the evidence, the Fourth Amendment
requires at least a minimal level of objective justification for making the stop.” Id.

9

USCA11 Case: 19-11131

Date
(10 of
Filed:
23) 04/30/2021

Page: 10 of 22

Reasonable suspicion may “be based on commonsense judgments and inferences
about human behavior.” Id. at 125. “[W]e look to the totality of the circumstances
to determine the existence of reasonable suspicion.” Jordan, 635 F.3d at 1186.
Here, construing the facts in the light most favorable to the government as
the prevailing party, it is clear that the officers had reasonable suspicion to stop
Gonzalez-Zea’s car and conduct an investigatory Terry stop under the totality of
the circumstances. The officers knew that a social security number associated with
the fugitive Alfaro-Aguilar had been used recently to connect a utility service at
the Heflin house. Thus, they had a specific, articulable, objective basis for
believing that the fugitive could be found at that location. Additionally, when the
officers observed Gonzalez-Zea leaving the house, it was in the pre-dawn hours of
September 26, 2017. Given the time of day, the officers possessed an objective,
reasonable suspicion that any man leaving the house was either the fugitive, or as a
resident of the house, may have known the fugitive and his whereabouts. This
information provided officers with sufficient particularized, reasonable suspicion
to conduct an investigatory stop of Gonzalez-Zea. See Hensley, 469 U.S. at 229;
Kapperman, 764 F.2d at 792.
To the extent Gonzalez-Zea argues that the ICE officers had to observe a
traffic violation or suspicious behavior specific to Gonzalez-Zea before stopping

10

USCA11 Case: 19-11131

Date
(11 of
Filed:
23) 04/30/2021

Page: 11 of 22

his vehicle, 6 his argument is unpersuasive because “[t]he touchstone of the Fourth
Amendment is reasonableness, not individualized suspicion.” Lewis, 674 F.3d at
1306 (quoting Samson v. California, 547 U.S. 843, 855 n.4 (2006)). In fact, “[t]he
Supreme Court has rejected efforts to limit investigative stops to situations in
which the officer has personally observed suspicious conduct.” United States v.
Aldridge, 719 F.2d 368, 371 (11th Cir. 1983). Rather, because reasonable
suspicion “is not concerned with ‘hard certainties, but with probabilities,’” Lewis,
674 F.3d at 1304, the investigative lead linking the social security number used by
the fugitive Alfaro-Aguilar to a recently opened utility account at the Heflin house
and the officer’s observation of a male leaving the house in the pre-dawn hours
were sufficient to justify the brief investigatory stop of the vehicle in order to
confirm whether the driver was the fugitive the ICE officers were seeking.
Gonzalez-Zea also cites a number of traffic-stop cases for the proposition
that police cannot conduct a random traffic stop to check a driver’s license or
question a driver about his citizenship status without any reasonable suspicion of

6

Gonzalez-Zea acknowledges in his brief that this was a Terry stop, not a traffic stop.
This contention is supported by the testimony of the ICE officers at the hearing on the motion to
suppress that the vehicle stop was an investigatory stop to determine whether the male driver was
the fugitive they were seeking—not a traffic stop. The ICE officers further testified that, even if
they had witnessed a traffic violation, they lacked the authority to pull a vehicle over for a traffic
violation or to issue traffic citations. Nevertheless, while this case is not a traffic-stop case, as
we explained in Lewis, “cases involving traffic stops are nonetheless relevant in evaluating the
reasonableness of investigatory detentions more generally.” 674 F.3d at 1306 n.5.

11

USCA11 Case: 19-11131

Date
(12 of
Filed:
23) 04/30/2021

Page: 12 of 22

criminal activity. As explained above, the Terry stop here was supported by the
officers’ reasonable suspicion, grounded in specific, articulable facts, that the
fugitive they were looking for could be at the house in question, and that GonzalezZea—a male seen leaving the house in the early morning hours—could have been
that fugitive or could have known the fugitive’s whereabouts. In short, this case is
a far cry from the cases cited by Gonzalez-Zea wherein traffic stops based on a
suspicion of mere potential general criminality were held to violate the Fourth
Amendment. See, e.g., United States v. Brignoni-Ponce, 422 U.S. 873, 874 (1975)
(explaining that “the Fourth Amendment forbids stopping vehicles at random to
inquire if they are carrying aliens who are illegally in the country” and “stopping
or detaining persons for questioning about their citizenship on less than a
reasonable suspicion that they may be aliens”); United States v. Yousif, 308 F.3d
820, 827–28 (8th Cir. 2002) (holding that the police violated the defendant’s
Fourth Amendment rights by stopping every car that went through a checkpoint to
look for drugs without having an articulable, reasonable suspicion that the vehicle
or its occupants are subject to seizure for a violation of the law); United States v.
Jiminez-Medina, 173 F.3d 752, 755 (9th Cir. 1999) (holding that an officer did not
have reasonable suspicion to stop a vehicle simply because it was driving slowly,
was a certain vehicle type, was on a known alien-smuggling corridor at an odd
hour, and the driver seemed preoccupied).

12

USCA11 Case: 19-11131

Date
(13 of
Filed:
23) 04/30/2021

Page: 13 of 22

Accordingly, for all the above reasons, we conclude that the officers had
reasonable suspicion to justify the stop of Gonzalez-Zea’s vehicle. 7
We now must turn to the second step of the Terry inquiry—whether the stop
was reasonably related in scope to the circumstances which justified the
interference in the first place—which leads us to Gonzalez-Zea’s second issue.
B. Whether the officers unlawfully prolonged the stop
Gonzalez-Zea argues that, even if the initial stop was valid, the officers
unlawfully prolonged it when they asked for Gonzalez-Zea’s identification and
inquired as to whether he had any identification issued by the United States.
According to him, the stop should have ended as soon as the officers observed that

7

Gonzalez-Zea also argues that the officers’ reliance on the reports linking the social
security number to the Heflin house was unreasonable because the number was associated with
both Alfaro-Aguilar and Sanchez (who had 26 aliases). In other words, he argues that the
officers had to rule out all other possible users of the social security number before they could
have a legitimate, reasonable suspicion that the fugitive Alfaro-Aguilar was using the social
security number and might be located at the Heflin house. Gonzalez-Zea’s argument conflates
the concepts of what evidence is necessary to establish probable cause versus what is sufficient
for reasonable suspicion—a much lower threshold. The Supreme Court has stated repeatedly
that officers do not have to rule out every possibility of innocent conduct in order to possess
reasonable suspicion to conduct an investigatory stop. See United States v. Arvizu, 534 U.S. 266,
277 (2002) (“A determination that reasonable suspicion exists [for an investigative stop] . . . need
not rule out the possibility of innocent conduct.”); Wardlow, 528 U.S. at 125–26 (explaining that
even where there are “innocent reasons” for certain conduct, where officers have specific,
articulable, reason to believe that criminal activity was, is, or is about to be afoot, Terry
authorizes the officers to detain individuals to resolve that ambiguity). As discussed above,
under the totality of the circumstances, the ICE officers had a reasonable suspicion to justify the
stop in this case. See United States v. Simmons, 172 F.3d 775, 779 (11th Cir. 1999) (holding that
police officers possessed reasonable suspicion and did not act unreasonably in detaining the
defendant to investigate whether he was the subject of a warrant for a person with a similar
name, even though the warrant was from a county on the other side of the state and the date of
birth did not match the defendant’s).
13

USCA11 Case: 19-11131

Date
(14 of
Filed:
23) 04/30/2021

Page: 14 of 22

he did not match the physical description of Alfaro-Aguilar and at the latest when
Gonzalez-Zea told the officers his name, which did not match the fugitive’s.
As explained previously, a Terry stop must also be “reasonably related in
scope to the circumstances which justified the interference in the first place.”
Terry, 392 U.S. at 20; see also Jordan 635 F.3d at 1186. Thus, an initially lawful
investigatory stop may become unlawful if it is “prolonged beyond the time
reasonably required to complete” the purpose of the stop. Rodriguez v. United
States, 575 U.S. 348, 355–57 (2015); Florida v. Royer, 460 U.S. 491, 500 (1983)
(plurality opinion) (“An investigative detention must be temporary and last no
longer than is necessary to effectuate the purpose of the stop.”).
As discussed previously, the officers had a reasonable suspicion that
Gonzalez-Zea could be the fugitive alien sought by ICE. Therefore, the officers
stopped the vehicle leaving the Heflin house and immediately began asking a
series of questions to dispel promptly and quickly with the task of confirming
Gonzalez-Zea’s identity. Officer Skillern asked Gonzalez-Zea for his name and
for identification to confirm the name he gave.8 These identification questions

8

To the extent Gonzalez-Zea argues that the officers were not permitted to ask him for
supporting identification and should have just accepted the name he supplied to the officers at
face value, his argument is unpersuasive. As the Supreme Court has emphasized, “questions
concerning a suspect’s identity are a routine and accepted part of many Terry stops.” Hiibel v.
Sixth Judicial Dist. Ct. of Nev., 542 U.S. 177, 186 (2004); see also United States v. DiazLizaraza, 981 F.2d 1216, 1221 (11th Cir. 1993) (explaining that “[d]uring a Terry stop, officers
may ask a suspect to identify himself or herself” and concluding that “the agents’ request for
identification and basic personal information was reasonable”). For this reason, Gonzalez-Zea’s
14

USCA11 Case: 19-11131

Date
(15 of
Filed:
23) 04/30/2021

Page: 15 of 22

were related in scope to the circumstances that justified the stop in the first place—
confirming whether the driver of the vehicle was the fugitive.
Further, when Gonzalez-Zea produced an identification card from another
country, Officer Skillern asked him whether he had any United States
identification, and when Gonzalez-Zea stated that he did not, Officer Skillern
asked why he did not have any United States identification. Gonzalez-Zea argues
that this additional identification inquiry “was a diversion from the purpose of the
stop[] and an “impermissible foray into investigating unrelated criminal activity.”
We disagree. Asking for an alternate form of identification simply was another
identification-related inquiry that was part of the task of verifying Gonzalez-Zea’s
identity, which was the purpose of the Terry stop. Although Gonzalez-Zea stated
that he was in the United States illegally in response to Officer Skillern’s
questions, at no point during the stop did the officers investigate another crime or
ask questions unrelated to verifying Gonzalez-Zea’s identity and locating the
fugitive. The record establishes that Officer Skillern acted diligently and the
overall Terry stop did not exceed the time needed to handle the matter for which

related argument that the officers were not permitted to ask him for his name or identification
because they should have been able to confirm from a “cursory visual inspection” that he was not
the fugitive Alfaro-Aguilar similarly fails.

15

USCA11 Case: 19-11131

Date
(16 of
Filed:
23) 04/30/2021

Page: 16 of 22

the stop was made—verifying whether Gonzalez-Zea who was seen leaving the
Heflin house was the fugitive and attempting to locate the fugitive. 9
Accordingly, for all these reasons, we conclude that the officers did not
unlawfully extend the stop.10
C.
Whether Gonzalez-Zea voluntarily consented to the officers’ search of
the house
Gonzalez-Zea argues that the district court erred when it found that he
voluntarily consented to the officers’ search of his house because the totality of the
circumstances weigh against the voluntariness of his consent. Specifically, he
asserts that his consent was the product of an illegal road-side seizure. Further, he
argues that even if his seizure was valid, his consent was not voluntary because the
officers were armed, the stop occurred during the pre-dawn hours in a rural area,

9

To the extent that Gonzalez-Zea relies on our post-Rodriguez interpretation in United
States v. Campbell, 912 F.3d 1340 (11th Cir. 2019), as to what renders a traffic stop
unreasonably prolonged, we note that following briefing and oral argument in this case, a
majority of this Court voted to grant rehearing en banc in Campbell, and as a result we vacated
the underlying panel decision, 981 F.3d 1014 (2020). Accordingly, Campbell is no longer good
law and will not be discussed further.
10

In arguing that the Terry stop was unreasonably prolonged, Gonzalez-Zea also appears
to challenge whether the overall manner and length of the investigatory detention was
reasonable. See United States v. Acosta, 363 F.3d 1141, 1146 (11th Cir. 2004) (explaining that
when evaluating the overall reasonableness of the scope of a Terry stop, we apply “four nonexclusive factors”: (1) “the law enforcement purposes served by the detention”; (2) “the
diligence with which the police pursue the investigation”; (3) “the scope and intrusiveness of the
detention”; and (4) “the duration of the detention.” (quoting United States v. Gil, 204 F.3d 1347,
1351 (11th Cir. 2000)). To the extent that Gonzalez-Zea challenges the reasonableness of the
manner and length of the detention, his argument fails as all four Acosta factors are satisfied in
this case for the same reasons that the stop was not unreasonably prolonged.

16

USCA11 Case: 19-11131

Date
(17 of
Filed:
23) 04/30/2021

Page: 17 of 22

the officers did not return his identification card, they left their red-and-blue lights
on, and he was never told he was free to leave or that he had the ability to refuse
consent. 11 We disagree.
As an initial matter, as discussed previously, we conclude that the ICE
officers had reasonable suspicion to conduct an investigatory stop with GonzalezZea and that the officers did not prolong the stop. Accordingly, it follows
necessarily that Gonzalez-Zea’s consent to the search of the Heflin house was not
the product of an illegal seizure. Consequently, we consider his alternative
argument that, even if his seizure was valid, his consent was the product of the
allegedly coercive circumstances.
A warrantless search “conducted pursuant to valid consent is constitutionally
permissible.” Schneckloth v. Bustamonte, 412 U.S. 218, 222 (1973). In order to be
valid, consent must be voluntarily given. Id. Consent is voluntary “if it is the
product of an ‘essentially free and unconstrained choice.’” United States v.
Benjamin, 958 F.3d 1124, 1134 (11th Cir. 2020). Voluntariness of consent “is a
question of fact to be determined from the totality of all the circumstances.”
Schneckloth, 412 U.S. at 227. The government bears the burden of proving that
11

To the extent that Gonzalez-Zea also argues that the officers should have informed him
of his Miranda rights and that their failure to do so mitigates the voluntariness of his consent, his
argument fails. We have previously held that a consent to search is not a self-incriminating
statement and that the failure to give a defendant a Miranda warning does not render the
defendant’s consent to search invalid. United States v. Hidalgo, 7 F.3d 1566, 1568 (11th Cir.
1993).
17

USCA11 Case: 19-11131

Date
(18 of
Filed:
23) 04/30/2021

Page: 18 of 22

“the consent was . . . freely and voluntarily given.” Id. at 222 (quoting Bumper v.
North Carolina, 391 U.S. 543, 548 (1968)). A district court’s determination that
consent was voluntary is a finding of fact that will not be disturbed on appeal
absent clear error. United States v. Spivey, 861 F.3d 1207, 1212 (11th Cir. 2017).
“Normally, we will accord the district judge a great deal of deference regarding a
finding of voluntariness, and we will disturb the ruling only if we are left with the
definite and firm conviction that the trial judge erred.” Id.
When evaluating the totality of the circumstances underlying consent, we
look at several factors, including “the presence of coercive police procedures, the
extent of the defendant’s cooperation with the officer, the defendant’s awareness of
his right to refuse consent, the defendant’s education and intelligence, and the
defendant’s belief that no incriminating evidence will be found.” United States v.
Purcell, 236 F.3d 1274, 1281 (11th Cir. 2001).
Almost all of these factors point in one direction—that Gonzalez-Zea
voluntarily consented to the search. The ICE officers did not coerce Gonzalez-Zea
into providing his consent. Rather, after Gonzalez-Zea stated that he lived alone,
the ICE officers simply asked if they could search the Heflin house. Gonzalez-Zea
agreed without any hesitation, drove his own vehicle back to the house, unlocked
the house to let the officers in, and cooperated throughout the search. He was
neither in custody nor restrained in any manner at the time he gave consent.

18

USCA11 Case: 19-11131

Date
(19 of
Filed:
23) 04/30/2021

Page: 19 of 22

Further, testimony at the suppression hearing confirmed that Gonzalez-Zea “didn’t
have any objection at all,” when asked for his consent and his interaction with the
ICE officers was “friendly” and “cordial.” Although the officers were armed
during the interaction with Gonzalez-Zea, they never removed their weapons.
Officers routinely carry weapons while on duty and, therefore, the mere presence
of a weapon on an officer does not render an encounter with an officer unduly
coercive and is insufficient to render a defendant’s consent involuntary. See
United States v. Drayton, 536 U.S. 194, 205 (2002) (explaining, in the context of
determining whether an individual was seized or engaged in a consensual
encounter with immigration officers, that “[t]he presence of holstered firearm is
unlikely to contribute to the coerciveness of the encounter absent active
brandishing of the weapon”).
Likewise, the fact that the red-and-blue police lights were activated on
Officer Skillern’s vehicle during his interaction with Gonzalez-Zea did not affect
the voluntariness of Gonzalez-Zea’s consent. Leaving police lights on is simply
not a display of force or coercive conduct on the part of an officer that could affect
an individual’s decision to freely and voluntarily consent to a search. See
Schneckloth, 412 U.S. at 233 (noting that involuntary consent is consent that is
“coerced by threats or force, or granted only in submission to a claim of lawful
authority”).

19

USCA11 Case: 19-11131

Date
(20 of
Filed:
23) 04/30/2021

Page: 20 of 22

Additionally, while the fact that the defendant’s identification was not
returned at the time he consented to the search “is a factor we . . . consider in
evaluating the totality of the circumstances,” “it is not a litmus test for voluntary
consent.” Purcell, 236 F.3d at 1282. Here, there is no indication that the officers
gave Gonzalez-Zea back his identification card at or before the time they asked for
his consent to search the house. Nevertheless, in light of the friendliness of the
encounter, Gonzalez-Zea’s lack of any objection to the search, and the absence of
any coercive behavior by the officers, under the totality of the circumstances, the
failure to return Gonzalez-Zea’s identification card is insufficient to render his
consent involuntary.12
While Gonzalez-Zea takes issue with the fact that the ICE officers failed to
advise him expressly that he had a right to refuse consent, the Supreme Court “has
rejected in specific terms the suggestion that police officers must always inform
citizens of their right to refuse when seeking permission to conduct a warrantless
12

Gonzalez-Zea cites two cases—United States v. Pruitt, 174 F.3d 1215, 1220 (11th Cir.
1999), and the Tenth Circuit’s decision in United States v. Mendez, 118 F.3d 1426, 1430 (10th
Cir. 1997)—in support of his contention that his consent was rendered involuntary by the
officers’ failure to return his identification card. Pruitt, however, did not involve the issue of the
voluntariness of the defendant’s consent because the defendant did not consent to a search. 174
F.3d at 1218. And in Mendez, the Tenth Circuit addressed the issue of the officer’s retention of
the driver’s identification in the context of determining whether a traffic-stop became a
consensual encounter, not when determining whether the driver’s consent to search the vehicle
was voluntary. 118 F.3d at 1430–31. Mendez certainly does not stand for the per se rule that an
officer’s retention of an individual’s identification renders an individual’s consent involuntary.
Id. at 1432. Moreover, even if Mendez stood for such a rule, we would not be bound by it. See
Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981) (“Under the established federal
legal system the decisions of one circuit are not binding on other circuits.”).
20

USCA11 Case: 19-11131

Date
(21 of
Filed:
23) 04/30/2021

Page: 21 of 22

consent search.” Drayton, 536 U.S. at 206; Schneckloth, 412 U.S. at 234
(“[N]either this Court’s prior cases, nor the traditional definition of ‘voluntariness’
requires proof of knowledge of a right to refuse as the sine qua non of an effective
consent to search.”). Rather, the Supreme Court has emphasized repeatedly “that
the totality of the circumstances must control, without giving extra weight to the
absence of this type of warning.” Drayton, 536 U.S. at 206–07. Here, although
the ICE officers did not inform Gonzalez-Zea of his right to refuse consent, there is
no claim (or evidence of record) that the officers took any action that would have
suggested to Gonzalez-Zea that he had no right to refuse the request to search the
house. Given the lack of any coercive behavior on the part of the ICE officers,
“[t]he mere fact that [the officers] did not inform [Gonzalez-Zea] of his right to
refuse consent . . . is insufficient to render [his] consent involuntary.” United
States v. Zapata, 180 F.3d 1237, 1242 (11th Cir. 1999).
Relatedly, Gonzalez-Zea argues that his consent was involuntary because the
officers did not inform him that he was free to go, but the Fourth Amendment does
not require that a defendant be advised that he is “free to go before [his] consent to
search may be deemed voluntary.” Ohio v. Robinette, 519 U.S. 33, 40 (1996).
Thus, the absence of this notification does not render Gonzalez-Zea’s consent
involuntary, particularly in light of the totality of the circumstances discussed
above.

21

USCA11 Case: 19-11131

Date
(22 of
Filed:
23) 04/30/2021

Page: 22 of 22

Accordingly, for the above reasons, we conclude that the district court did
not clearly err in finding that, based on the totality of the circumstances, GonzalezZea voluntarily consented to the search of the Heflin house.
IV.

Conclusion

For these reasons, we affirm the district court’s denial of Gonzalez-Zea’s
motion to suppress.
AFFIRMED.

22

USCA11 Case: 19-11131

(23
DateofFiled:
23) 04/30/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

April 30, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-11131-JJ
Case Style: USA v. Guillermo Gonzalez-Zea
District Court Docket No: 3:17-cr-00444-WKW-WC-1
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Non-incarcerated pro se parties are permitted to use the ECF
system by registering for an account at www.pacer.gov. Information and training materials related to
electronic filing, are available at www.ca11.uscourts.gov. Enclosed is a copy of the court's decision filed today
in this appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition for
rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for inmate
filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office within the
time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content
of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a complete list
of all persons and entities listed on all certificates previously filed by any party in the appeal. See 11th Cir. R. 26.11. In addition, a copy of the opinion sought to be reheard must be included in any petition for rehearing or petition
for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for time
spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme Court of
a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA Team at (404)
335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Tiffany A. Tucker, JJ at (404)335-6193.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 1 of 16

App 1b

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
EASTERN DIVISION
UNITED STATES OF AMERICA
v.
GUILLERMO GONZALEZ-ZEA

)
)
)
)
)

CASE NO. 3:17-CR-444-WKW
[WO]

MEMORANDUM OPINION AND ORDER
I. INTRODUCTION
Immigration and Customs Enforcement (ICE) deportation officers linked a
fugitive to a house in Heflin, Alabama, so they put the house under surveillance.
The officers saw a man leave the house and get in a car, but they could not tell who
the man was, so they stopped him and asked for his ID. The man was Defendant
Guillermo Gonzalez-Zea. Gonzalez-Zea identified himself, said he lived alone in
the house, and admitted that he was an illegal alien. The officers recognized that
Gonzalez-Zea was not the fugitive they were after, but they still asked to search his
house. Gonzalez-Zea consented. Once inside the house, the officers spotted several
guns in plain view, so they arrested Gonzalez-Zea.
The United States charged Gonzalez-Zea with being an illegal alien in
possession of a firearm and live ammunition. Now before the court is GonzalezZea’s Motion to Suppress (Doc. # 28), in which he argues that the officers: (1)
lacked reasonable suspicion to stop his car; (2) unreasonably extended the vehicle

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 2 of 16

stop; and (3) did not get valid consent to search his house. After an evidentiary
hearing, the Magistrate Judge recommended that the court deny the motion. (Doc.
# 56.) Gonzalez-Zea objected to the Magistrate Judge’s factual findings and legal
conclusions. (Doc. # 57.)
The court agrees with the Magistrate Judge’s conclusion, but it expands the
supporting rationale and corrects minor misstatements of the facts. Based upon the
applicable law and a thorough review of all of the evidence, the Motion to Suppress
is due to be denied.
II. STANDARD OF REVIEW
When a party objects to a Magistrate Judge’s Report and Recommendation,
the district court must review the disputed portions de novo. 28 U.S.C. § 636(b)(1).
The district court “may accept, reject, or modify the recommendation, receive further
evidence, or resubmit the matter to the magistrate judge with instructions.” Fed. R.
Crim. P. 59(b)(3).
De novo review requires that the district court independently consider factual
issues based on the record. Jeffrey S. ex rel. Ernest S. v. State Bd. of Educ., 896 F.2d
507, 513 (11th Cir. 1990). If the Magistrate Judge made findings based on witness
testimony, the district court must review the transcript or listen to a recording of the
proceedings. Id. The district court cannot reject a credibility determination without
rehearing live testimony. United States v. Powell, 628 F.3d 1254, 1257 (11th Cir.
2

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 3 of 16

2010). But the district court may, without holding a new hearing, modify findings
in a way that is consistent with the Magistrate Judge’s credibility determination. See
Proffitt v. Wainwright, 685 F.2d 1227, 1240–41 (11th Cir. 1982).
III. FACTS
On September 26, 2017, ICE deportation officers Christopher Purdy, Scott
Skillern, and Waylon Hinkle (together, “the officers”) staked out a house located at
30926 Highway 431 in Heflin, Alabama. The officers were pursuing a man named
Jose Rodolfo Alfaro-Aguilar, an illegal alien with an administrative warrant out for
his arrest. (Doc. # 46-3, at 113.) But as things turned out, the officers ended up
arresting Defendant Guillermo Gonzalez-Zea instead.
The officers did not know for sure where Alfaro-Aguilar lived. (See Doc.
# 46-3, at 11–13; Doc. # 47, at 65, 69.) But Officer Purdy got a lead from colleagues
in Atlanta that Alfaro-Aguilar might be in Heflin. (Doc. # 47, at 66.) Purdy verified
that lead. (Doc. # 47, at 69.) As he explained at the evidentiary hearing, there was
a Social Security number in ICE’s file on Alfaro-Aguilar. (Doc. # 46-3, at 11; Doc.
# 47, at 70.) And according to a database, the same Social Security number was
associated with a man named Jose Sanchez — a man with twenty-six possible aliases
and fifteen possible addresses. (Doc. # 46-3, at 27–33; Doc. # 47, at 71–72.) 1 The

1

Purdy could not remember whether he searched the database for the Social Security
number or for Jose Sanchez. (Doc. # 47, at 71.)
3

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 4 of 16

first of those addresses was 30926 Highway 431 in Heflin. The Social Security
number used by both Alfaro-Aguilar and Sanchez had been used to open a utility
account at that address. (Doc. # 46-3, at 29; Doc. # 47, at 77.)2
Officers Purdy, Skillern, and Hinkle went to Heflin to stake out the house.
(Doc. # 47, at 5, 48, 63.) They got to the house between 5:00 and 6:00 a.m. (Doc.
# 47, at 7.) Purdy and Skillern parked their cars about 50–75 yards from the end of
the driveway (Doc. # 47, at 6–7, 74), and Hinkle was at a store a few minutes away
(Doc. # 21, at 5; Doc. # 47, at 48).
Sometime before dawn, Purdy saw a man leave the house, get in a car, and
start driving away. (Doc. # 47, at 10, 74.) The man drove past where Skillern was
parked. (Doc. # 47, at 10.) Neither Purdy nor Skillern could tell whether AlfaroAguilar was the driver. (Doc. # 47, at 10, 77). Skillern flipped on his car’s siren
and flashing red and blue lights; the suspect vehicle stopped; and Skillern went to
identify the driver. (Doc. # 47, at 10–11, 17.) Purdy stayed put to watch the house
(Doc. # 47, at 14, 43, 78), while Hinkle came to help Skillern (Doc. # 47, at 48). The
sole purpose of this vehicle stop was to determine whether the driver was the fugitive
Alfaro-Aguilar. (See Doc. # 34, at 2; Doc. # 47, at 32; Doc. # 55, at 2.)

2

The Magistrate Judge found that “Purdy had been informed by an officer in Atlanta that
. . . utilities had been connected in the fugitive’s name at that address.” (Doc. # 56, at 2; see also
Doc. # 56, at 6.) That overstates the evidence. Purdy testified that a utility had been connected at
the house using the Social Security number also used by the fugitive. (Doc. # 47, at 69.) There is
no evidence that the utility was connected in Alfaro-Aguilar’s name.
4

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 5 of 16

But Alfaro-Aguilar was not the driver; Defendant Gonzalez-Zea was behind
the wheel. When asked, Gonzalez-Zea gave Skillern his name, which Skillern
recognized “didn’t match the person we were looking for.” (Doc. # 47, at 11.)
Skillern then asked for identification, and Gonzalez-Zea handed the officer a
Mexican ID card. (Doc. # 47, at 11–12, 38–39.) Skillern asked for a driver’s license,
but Gonzalez-Zea replied that he did not have one. When asked why, he admitted
that he was in the United States illegally. (Doc. # 47, at 12, 38–40.)
At this point, the vehicle stop had taken only a “couple minutes” (Doc. # 47,
at 42, 49, 60), but Skillern was already “pretty positive” that Gonzalez-Zea was not
Alfaro-Aguilar (Doc. # 47, at 14).3 So Skillern told Gonzalez-Zea that the officers
were looking for a fugitive and asked him who lived in the house. Gonzalez-Zea
answered that he lived there alone. (Doc. # 47, at 14.)
Skillern then asked if the officers could go inside the house to “take a look.”
Gonzalez-Zea did not object. (Doc. # 47, at 15.) Skillern did not tell Gonzalez-Zea
that he had a right not to consent to a search. (Doc. # 47, at 42.)
By the time Gonzalez-Zea agreed to the search, Hinkle had arrived on the

3

In addition to his name and the Mexican identification card, there were other indications
that Gonzalez-Zea was not Alfaro-Aguilar. Skillern noticed that Gonzalez-Zea is missing several
fingers and has discolored pigment on his hands and arms. (Doc. # 47, at 39.) That information
did not appear in Alfaro-Aguilar’s file. (See Doc. # 46-3, at 11–13; Doc. # 47, at 39.) Also, AlfaroAguilar is a Honduran citizen, but Gonzalez-Zea produced a Mexican ID card. (Doc. # 46-3, at
11; Doc. # 47, at 39, 72.)
5

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 6 of 16

scene, meaning that two officers were by Gonzalez-Zea’s car. (Doc. # 47, at 13, 42,
60.) Both officers, Skillern and Hinkle, wore ballistic vests emblazoned with police
and ICE insignia. Their pistols were visible, though not drawn. (Doc. # 47, at 15,
40, 46–47, 52.) Skillern did not tell Gonzalez-Zea that he was free to go. (Doc.
# 47, at 40.) Neither officer read Gonzalez-Zea his Miranda rights before Skillern
asked to search the house. (Doc. # 47, at 40, 42, 57.) There is no evidence that
Skillern turned off his car’s lights and siren. And there is no evidence that Skillern
gave Gonzalez-Zea’s Mexican ID card back to him. 4
After Gonzalez-Zea agreed to let the officers search his home, Gonzalez-Zea
drove his own car the short distance back to the house. The officers followed in their
own cars. (Doc. # 47, at 17.) The officers did not search or handcuff him. (Doc.
# 47, at 15, 53.) Gonzalez-Zea unlocked the door and let the officers inside. (Doc.
# 47, at 18.) An officer then stepped into the bedroom and saw a shotgun in the
corner of the room. (Doc. # 47, at 18–19, 53.) An officer also saw a rifle in an open
closet. (Doc. # 47, at 53.) Both firearms were in plain view. Hinkle read GonzalezZea his Miranda rights in Spanish after they found the two guns. (Doc. # 47, at 22–
26, 44, 55.) Gonzalez-Zea then led the officers to a pistol in a drawer. (Doc. # 47,
at 26–27, 54, 57.)

4

The Magistrate Judge found that Gonzalez-Zea “was not detained or placed under arrest”
during the stop. (Doc. # 56, at 3.) Though he was not arrested, he was certainly detained. See
United States v. Pruitt, 174 F.3d 1215, 1219 (11th Cir. 1999).
6

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 7 of 16

Gonzalez-Zea is now charged with a single count of being an illegal alien in
possession of a firearm and live ammunition, a violation of 18 U.S.C. §§ 922(g)(5)
and 924(a)(2). (Doc. # 15, at 1.) Gonzalez-Zea moved to suppress the evidence
“recovered as a result of an unlawful traffic stop and unreasonable detention.” (Doc.
# 28, at 1.) The Magistrate Judge held an evidentiary hearing at which Officers
Purdy, Skillern, and Hinkle testified.

(Doc. # 47.)

The Magistrate Judge

recommended denying the motion to suppress. (Doc. # 56.) Gonzalez-Zea filed
written objections to the Recommendation. (Doc. # 57.) For the reasons that follow,
the Recommendation is due to be modified in accordance with this Memorandum
Opinion and Order, and the motion to suppress is due to be denied.
IV. DISCUSSION
The Fourth Amendment prohibits “unreasonable searches and seizures.” U.S.
Const. amend. IV. The officers seized Gonzalez-Zea when they stopped his car, and
they searched his home when they went inside to look around. Gonzalez-Zea argues
that the seizure was unconstitutional because the officers’ suspicions were
unreasonable and because the stop was overbroad. He also contends that the officers
did not get valid consent to search his home. But his arguments are not persuasive.
A.

The vehicle stop did not violate the Fourth Amendment because the
officers had reasonable suspicion to stop Gonzalez-Zea’s car and because
they did not unreasonably extend that stop.
Under Terry v. Ohio, 392 U.S. 1 (1968), “even in the absence of probable
7

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 8 of 16

cause, police may stop persons and detain them briefly in order to investigate a
reasonable suspicion that such persons are involved in criminal activity.” United
States v. Pruitt, 174 F.3d 1215, 1219 (11th Cir. 1999) (quoting United States v.
Tapia, 912 F.2d 1367, 1370 (11th Cir. 1990)). But there are limits on when lawenforcement officers can make a so-called “Terry stop.” Hiibel v. Sixth Judicial
Dist. Court of Nev., 542 U.S. 177, 185 (2004). One limit is that the stop must be
“justified at its inception,” Terry, 392 U.S. at 20, meaning that the officers must have
a “reasonable suspicion” of criminal activity, United States v. Sokolow, 490 U.S. 1,
7 (1989). Another limit is that the seizure must be “reasonably related in scope to
the circumstances which justified the interference in the first place.” Terry, 392 U.S.
at 20. Gonzalez-Zea argues that the officers here violated both limits. They did not.
1.

The officers had reasonable suspicion to stop Gonzalez-Zea’s car
because they saw him leave a house linked to a fugitive.

The “reasonable suspicion” threshold for a Terry stop requires that an officer
“be able to point to specific and articulable facts which, taken together with rational
inferences from those facts, reasonably warrant” the seizure. Tapia, 912 F.2d at
1370 (quoting Terry, 392 U.S. at 21). That is, the officer must have more than a
“hunch.” Terry, 392 U.S. at 27. There must be “at least a minimal level of objective
justification for making the stop.” Jackson v. Sauls, 206 F.3d 1156, 1165 (11th Cir.
2000) (quoting Illinois v. Wardlow, 528 U.S. 119, 123 (2000)). And generally,
reasonable suspicion “must attach to the particular person stopped.” United States
8

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 9 of 16

v. Lewis, 674 F.3d 1298, 1305 (11th Cir. 2012) (citing United States v. Cortez, 449
U.S. 411, 418 (1981)).
But even though a “hunch” is not enough to justify a Terry stop, “the
likelihood of criminal activity need not rise to the level required for probable cause,
and it falls considerably short of satisfying a preponderance of the evidence
standard.” United States v. Bautista-Silva, 567 F.3d 1266, 1272 (11th Cir. 2009)
(quoting United States v. Arvizu, 534 U.S. 266, 274 (2002)). Officers may develop
reasonable suspicion “by observing exclusively legal activity.” United States v.
Gordon, 231 F.3d 750, 754 (11th Cir. 2000). And reasonable suspicion must be
based on the “totality of the circumstances,” which “allows officers to draw on their
experiences and specialized training to make inferences from and deductions about
the cumulative information available to them that might well elude an untrained
person.” Bautista-Silva, 567 F.3d at 1272 (quoting Arvizu, 534 U.S. at 273).
According to Gonzalez-Zea, Officers Purdy, Skillern, and Hinkle could not
have reasonably suspected “that Jose Alfaro-Aguilar was associated with — let
alone actually lived in — the address in Heflin; or that Mr. Gonzalez-Zea was Mr.
Alfaro-Aguilar.”

(Doc. # 57, at 11.)

Not so.

Based on the totality of the

circumstances, the officers had reasonable suspicion to believe that the man they
saw leaving the house at 30926 Highway 431 was the fugitive Jose Alfaro-Aguilar.
They were therefore permitted to stop and identify him.
9

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 10 of 16

Officer Purdy testified that he got a lead from his colleagues in Atlanta that
Alfaro-Aguilar might be in Heflin. When Purdy went to verify that lead, he found
that Alfaro-Aguilar and Jose Sanchez used the same Social Security number. The
house at 30926 Highway 431 was the first listed possible address for Sanchez. A
utility account had been opened at that house using the Social Security number
shared between Alfaro-Aguilar and Sanchez. The officers went to the house looking
for a Hispanic male, and they saw a man seen leave the house.
To be sure, the only link between Alfaro-Aguilar and Sanchez was that they
had used the same Social Security number. (Doc. # 47, at 77.) Officer Purdy also
testified that in cases like this, multiple people “typically” use the same Social
Security number. (Doc. # 47, at 77.) And indeed, the report on Sanchez listed
multiple aliases with the same Social Security number. (Doc. # 46-3, at 27–29.) But
even if the odds were against Alfaro-Aguilar actually being the driver, that does not
necessarily mean that the officers lacked reasonable suspicion. See Sokolow, 490
U.S. at 7–8. The officers had evidence linking Alfaro-Aguilar to the house, and
Gonzalez-Zea emerged from the house, so the officers had reasonable suspicion to
stop him.
2.

The officers did not unreasonably extend the stop because the seizure
was brief, and the officers focused on the reason for the stop.

Of course, it is not enough that the officers had reasonable suspicion to stop
Gonzalez-Zea; the stop also had to be limited in scope. Pruitt, 174 F.3d at 1221.
10

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 11 of 16

Courts determine whether a Terry stop was overbroad by looking at several factors,
including: “the law enforcement purposes served by the detention, the diligence with
which the police pursue the investigation, the scope and intrusiveness of the
detention, and the duration of the detention.” United States v. Simmons, 172 F.3d
775, 780 (11th Cir. 1999) (quoting United States v. Hardy, 855 F.2d 753, 759 (11th
Cir. 1988)).
According to Gonzalez-Zea, the officers extended the stop too far when they
continued to detain him even after they realized that he was not Alfaro-Aguilar.
(Doc. # 57, at 13.) That argument fails. Officers Purdy, Skillern, and Hinkle did not
detour from their search for Alfaro-Aguilar. They stopped Gonzalez-Zea to see if
he was Alfaro-Aguilar, and Skillern’s questions focused on establishing GonzalezZea’s identity and whether he or anyone else lived in the house. The fact that
Gonzalez-Zea was not Alfaro-Aguilar did not rule out the possibility that AlfaroAguilar lived in the house. The officers did not search, arrest, or handcuff GonzalezZea. And perhaps most importantly, Skillern’s questions did not take too long; the
stop did not last more than a “couple minutes.”
Gonzalez-Zea asserts that Skillern should have accepted his Mexican ID card
without asking for a driver’s license (or why he did not have one). But when an
officer pulls over a car, it is reasonable to ask for a driver’s license. After all, state
law requires that drivers have a license. See Ala. Code § 32-6-1(a). The U.S.
11

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 12 of 16

Supreme Court’s decisions also “make clear that questions concerning a suspect’s
identity are a routine and accepted part of many Terry stops.” Hiibel, 542 U.S. at
186; see Adams v. Williams, 407 U.S. 143, 146 (1972).
To be sure, an officer cannot ask questions unrelated to the reason for a vehicle
stop “in a way that prolongs the stop, absent the reasonable suspicion ordinarily
demanded to justify detaining an individual.” Rodriguez v. United States, 135 S. Ct.
1609, 1615 (2015). Officers cannot spend any more time than is “reasonably
required to complete the stop’s mission.” Id. at 1616 (quoting Illinois v. Caballes,
543 U.S. 405, 407 (2005)). But at the same time, an officer “may conduct certain
unrelated checks,” id. at 1615, and make “ordinary inquiries incident to the . . . stop,”
id. (quoting Caballes, 543 U.S. at 408); see also United States v. Griffin, 696 F.3d
1354, 1362 (11th Cir. 2012) (quoting Arizona v. Johnson, 555 U.S. 323, 333 (2009))
(holding “unrelated questions posed during a valid Terry stop do not create a Fourth
Amendment problem unless they ‘measurably extend the duration of the stop’”).
Sometimes it can be difficult to reconcile the command that an officer not
prolong a stop with the officer’s authority to ask unrelated questions. See United
States v. Green, 897 F.3d 173, 181 (3d Cir. 2018) (noting the difficulty). But in this
case, any of Skillern’s questions that fell beyond the precise reason for the stop
— finding out if Alfaro-Aguilar was the driver — were still “reasonably related in
scope” to the reason for the stop. Terry, 392 U.S. at 20; cf. United States v. Vargas,
12

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 13 of 16

848 F.3d 971, 974 (11th Cir. 2017). They were, in other words, ordinary inquiries
incident to the stop. Also, questions about Gonzalez-Zea’s lack of a driver’s license
and whether he (or anyone else) lived in the house could not have taken more than a
minute. And overall, Skillern acted diligently and reasonably. His questions
therefore did not transform the stop into an unconstitutionally prolonged seizure.
See Griffin, 696 F.3d at 1362.
B.

Gonzalez-Zea gave valid consent to the search of his home.
Even though the Terry stop of Gonzalez-Zea’s car was valid, the search of his

home is a separate question. The focus is on Gonzalez-Zea’s consent to the search.
“A consensual search is constitutional if it is voluntary; if it is the product of an
‘essentially free and unconstrained choice.’” United States v. Purcell, 236 F.3d
1274, 1281 (11th Cir. 2011) (quoting Schneckloth v. Bustamonte, 412 U.S. 218, 225
(1973). “In assessing voluntariness, the inquiry is factual and depends on the totality
of the circumstances.” Id. (citing Schneckloth, 412 U.S. at 248–49).
Gonzalez-Zea argues that his consent was involuntary because it was
obtained: “(1) by two armed law enforcement officers wearing law enforcement
regalia; (2) during a stop in darkness on an isolated rural road; (3) while Mr.
Gonzalez-Zea’s identification card was in the possession of law enforcement
officers; (4) while the red and blue police lights were still on; (5) without Mr.
Gonzalez-Zea being informed that he was free to leave; and (6) without Mr.

13

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 14 of 16

Gonzalez-Zea having been informed of his Miranda rights or his right to refuse to
consent.” (Doc. # 57, at 16 n.10; see Doc. # 54, at 8–11.) Gonzalez-Zea’s objections
are certainly relevant in determining the validity of consent, but the totality of the
circumstances shows that his consent was voluntary.
Like most law-enforcement officers, Skillern and Hinkle were armed. But
neither officer drew his gun, and the mere presence of holstered firearms does not
make consent involuntary. See United States v. Drayton, 536 U.S. 194, 205 (2002);
United States v. Perez, 443 F.3d 772, 778 n.2 (11th Cir. 2006). The same is true of
the officers’ badges and other law-enforcement insignia. See Drayton, 536 U.S. at
204–05; United States v. Villanueva-Fabela, 202 F. App’x 421, 427 (11th Cir. 2006).
Though the stop happened before dawn on a relatively rural road, GonzalezZea was in his car just down the road from his house. He was also on the side of a
public highway, not in a police station or the back of a police car. Even if it was as
early as 5:00 a.m., that would not necessarily invalidate his consent. See United
States v. James, 423 F.2d 991, 992–93 (5th Cir. 1970) (affirming a district court’s
finding that consent to a search “in the dark hours of the morning” was valid).
The court assumes that Skillern’s flashing red and blue lights were still on,
meaning that Gonzalez-Zea was not free to leave. See Ala. Code § 13A-10-52(b);
id. § 32-5-113(a). But a person can give consent to a search even when under arrest.
See, e.g., United States v. Watson, 423 U.S. 411, 424 (1976); United States v.
14

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 15 of 16

Hidalgo, 7 F.3d 1566, 1571 (11th Cir. 1993). The question is not whether GonzalezZea was free to leave immediately, but whether he was free to refuse consent. See
Purcell, 236 F.3d at 1282 (citing Florida v. Bostick, 501 U.S. 429, 435 (1991)).
Likewise, even assuming that Skillern had not returned Gonzalez-Zea’s ID when he
asked for consent, that would not necessarily negate consent. Id.
Skillern did not tell Gonzalez-Zea that he could refuse consent, but courts
have repeatedly “rejected in specific terms the suggestion that police officers must
always inform citizens of their right to refuse when seeking permission to conduct a
warrantless consent search.” Drayton, 536 U.S. at 206. And finally, the lack of a
Miranda warning before the search “is only one factor in assessing voluntariness.”
United States v. Hall, 565 F.2d 917, 921 (5th Cir. 1978); see also United States v.
Bates, 840 F.2d 858, 861 (11th Cir. 1988).
Even viewing all six of Gonzalez-Zea’s objections together, they do not show
that his consent was invalid. That is because one must also consider the fact that
Gonzalez-Zea: (1) was neither searched nor handcuffed; (2) drove his own car back
to the house; and (3) unlocked the door and let the officers inside. Based on the
totality of the circumstances, Gonzalez-Zea’s consent was voluntary; it was the
product of an essentially free and unconstrained choice.

15

Case 3:17-cr-00444-WKW-WC Document 60 Filed 09/10/18 Page 16 of 16

V. CONCLUSION
Upon careful consideration of the Motion to Suppress (Doc. # 28), the
Magistrate Judge’s Recommendation (Doc. # 56), and Gonzalez-Zea’s objections to
that Recommendation (Doc. # 57), and after a thorough review of the record, it is
ORDERED that the Recommendation is ADOPTED as MODIFIED in accordance
with this Memorandum Opinion and Order, Gonzalez-Zea’s objections are
OVERRULED, and the Motion to Suppress is DENIED.
DONE this 10th day of September, 2018.

/s/ W. Keith Watkins
CHIEF UNITED STATES DISTRICT JUDGE

16

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 1 of 10

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
EASTERN DIVISION
UNITED STATES OF AMERICA,
v.
GUILLERMO GONZALEZ-ZEA

App 1c

)
)
) CRIM. ACT. NO. 3:17cr444-WKW
)
(WO)
)

RECOMMENDATION OF THE MAGISTRATE JUDGE
Defendant Guillermo Gonzalez-Zea (“Gonzalez-Zea”) was charged on October 17, 2017,
in a single count indictment with being an illegal alien in possession of a firearm and live
ammunition in violation of 18 U.S.C. § 922(g)(5) and § 924(a)(2). On February 5, 2018,
Gonzalez-Zea filed a motion to suppress all physical items seized, statements made, and other
“fruits” obtained as a result of “an unlawful traffic stop and unreasonable detention” on
September 26, 2017, in Heflin, Alabama, in the Middle District of Alabama. (Doc. # 28 at 1).
Claiming that the stop of his vehicle were unsupported by reasonable suspicion, Gonzalez-Zea
contends that all evidence seized and statements made should be suppressed because the traffic
stop violated the Fourth Amendment to the United States Constitution. Gonzalez-Zea also
contends that the duration of the traffic stop was unreasonably extended. (Id. at 3). Finally,
Gonzalez-Zea argues that his consent to search his residence was “coerced and obtained in a
means insufficiently distinguishable from [his] illegal seizure.” (Id).
On April 4, 2018, the Court held an evidentiary hearing on the motion to suppress. For
the reasons which follow, the Court concludes that the motion to suppress is due to be DENIED.
FACTS
Before dawn on the morning of September 26, 2017, United States Department of

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 2 of 10

Homeland Security Immigration and Customs Enforcement deportation officers Christopher
Purdy, Scott Skillern and Waylon Hinkle were surveilling a residence located at 30926 Highway
431, in Heflin, Alabama. The officers were trying to locate an Immigration and Customs
Enforcement fugitive named Jose Rodolfo Alfaro-Aguilar for whom there was a warrant for his
deportation.1 (Doc. # 47, Evid. Hrg Tr. at 63). Officer Purdy had been informed by an officer
in Atlanta that the fugitive might be living at the address because utilities had been connected
in the fugitive’s name at that address. The officers arrived at the residence before 5:00 a.m. and
parked within sight of the house.
Officer Purdy observed a male leave the residence in a vehicle but Purdy was parked too
far away to identify the man as the fugitive. Purdy informed Skillern that a male had left the
residence in the vehicle, and Skillern stopped the vehicle a short distance from the house to see
if the driver was the fugitive. It is undisputed that the only reason Skillern stopped the vehicle
was simply to ascertain whether the driver of the vehicle was the fugitive. Skillern activated
his lights and siren. The defendant, who was driving the vehicle, stopped. Skillern approached
the vehicle and asked the defendant his name. Recognizing that the name was not that of the
fugitive, Skillern asked for identification. The defendant produced an identification document
issued by Mexico. Skillern asked for additional identification issued by the United States but
the defendant stated he did not have identification because he was in the country illegally. All
of this occurred within a minute of the stop of the defendant.
During Skillen’s short conversation with the defendant, officer Hinkle arrived. At that
1

Alfaro-Aguilar was ordered removed in July 2016. (Doc. # 47, Evid. Hrg Tr. at 64).

2

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 3 of 10

point, the deportation officers were sure the defendant was not the fugitive. The defendant was
not detained or placed under arrest. But the officers explained to the defendant that they were
looking for a fugitive and asked if there was anyone else in the house. The defendant replied
that he lived alone, and Skillern asked if they could “go back and take a look.” (Doc. # 47,
Evid. Trans. at 15).
The officers and the defendant drove back to the residence in their respective vehicles.
Gonzalez-Zea unlocked the door and allowed the officers to enter the house. When the officers
entered a bedroom, they saw a shotgun in the corner and found a rifle in a closet. Once the
officers found firearms in the residence, Hinkle advised the defendant of his rights in Spanish.
The defendant indicated that he was willing to answer questions and admitted that there was
another firearm in the house. After recovering the third weapon, the defendant was arrested.
DISCUSSION
A. Validity of Investigatory Stop
The Fourth Amendment protects individuals from “unreasonable searches and seizures”
by government officials, and its protections extend to “brief investigatory stops of persons or
vehicles.” United States v. Arvizu, 534 U.S. 266, 273 (2002). Under Terry v. Ohio, 392 U.S.
1 (1968), “even in the absence of probable cause, police may stop persons and detain them
briefly in order to investigate a reasonable suspicion that such persons are involved in criminal
activity.”2 United States v. Pruitt, 174 F.3d 1215, 1219 (11th Cir. 1999) (quoting United States

2

The government does not argue, and the court does not find, that the agents had probable cause
to initiate a traffic stop.

3

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 4 of 10

v. Tapia, 912 F.2d 1367, 1370 (11th Cir. 1990)). “Where police have been unable to locate a
person suspected of involvement in a past crime, [they have] the ability to briefly stop that
person, ask questions, or check identification,” and “if police have a reasonable suspicion,
grounded in specific and articulable facts, that a person they encounter was involved in or is
wanted in connection with a completed felony, then a Terry stop may be made to investigate that
suspicion.” United States v. Hensley, 469 U.S. 221, 229 (1985).
For brief investigatory stops, the Fourth Amendment is satisfied “when the officer has
a reasonable, articulable suspicion that criminal activity is afoot.” United States v. Gordon, 231
F.3d 750, 754 (11th Cir. 2000) (quoting Illinois v. Wardlow, 528 U.S. 119, 123 (2000)). The
reasonable suspicion required for a Terry stop is more than a hunch, and considering the totality
of the circumstances, must be supported by some minimal level of objective justification that
the person engaged in unlawful conduct. United States v. Sokolow, 490 U.S. 1, 7-8 (1989).
Reasonable suspicion “is obviously considerably less than proof of wrongdoing by a
preponderance of the evidence, INS v. Delgado, 466 U.S. 210, 217 (1984), or even the implicit
requirement of probable cause that a fair probability that evidence of a crime will be found.”
Tapia, 912 F.2d at 1370. Reasonable suspicion requires “‘at least a minimal level of objective
justification for making the stop.’” United States. v. Acosta, 363 F.3d 1141, 1145 (11th Cir.
2004) (quoting Jackson v. Sauls, 206 F.3d 1156, 1165 (11th Cir. 2000). It does not require
officers to catch the suspect in a crime. Instead, “[a] reasonable suspicion of criminal activity
may be formed by observing exclusively legal activity.” Gordon, 231 F.3d 750, 754 (11th Cir.
2000).
4

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 5 of 10

The “reasonable suspicion” standard requires that, to justify an investigatory stop, a
police officer must “be able to point to specific and articulable facts which, taken together with
rational inferences from those facts, reasonably warrant that intrusion.” Terry, 392 U.S. at 21
(footnote omitted)); see also United States v. Williams, 876 F.2d 1521, 1524 (11th Cir. 1989)
(citing Sokolow, 490 U.S. at 7) (holding that reasonable suspicion “requires that the police
articulate facts which provide some minimal, objective justification for the [investigatory]
stop.”). When assessing the facts articulated by an officer to determine whether an investigatory
stop is warranted, a court must view them in totality and cannot engage in a
“‘divide-and-conquer analysis[.]’” United States v. Bautista-Silva, 567 F.3d 1266, 1273-74
(11th Cir. 2009). Reasonable suspicion may exist based on the totality of the circumstances
even if each individual fact articulated by the officer, standing alone, is susceptible of an
innocent explanation. Id.; see also Arvizu, 534 U.S. at 274-75. Moreover, “officers are
permitted to “draw on their own experience and specialized training to make inferences from
and deductions about the cumulative information available to them that ‘might well elude an
untrained person.’” Arvizu, 534 U.S. at 273 (quoting United States v. Cortez, 449 U.S. 411, 418
(1981)).
The court must decide whether, taken together and in light of the deportation officers’
experience, the factors articulated by the officers gave rise to “reasonable suspicion, grounded
in specific and articulable facts,” that the fugitive was driving the vehicle they observed leaving
the residence. See Hensley, 469 U.S. at 229; see also Arvizu, 534 U.S. at 273 (“When
discussing how reviewing courts should make reasonable-suspicion determinations, we have
5

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 6 of 10

said repeatedly that they must look at the ‘totality of the circumstances’ of each case to see
whether the detaining officer has a ‘particularized and objective basis’ for suspecting legal
wrongdoing.”). The court finds that, under the totality of the circumstances known to the
deportation officers, Acosta, 363 F.3d at 1145, and in light of the officers’ experience and
training, Arvizu, 534 U.S. at 273, it was reasonable for the officers to suspect that the driver of
the vehicle may have been the fugitive they sought. See Cortez, 449 U.S. at 418 (holding that
reasonable suspicion “does not deal with hard certainties, but with probabilities. Long before
the law of probabilities was articulated as such, practical people formulated certain common
sense conclusions about human behavior; jurors as factfinders are permitted to do the
same—and so are law enforcement officers”).
Officer Purdy had been informed by agents in Atlanta that utilities had been connected
at the residence in the fugitive’s name and using his social security number. The officers in
Atlanta had run the fugitive’s name, date of birth and social security number through a database
which revealed the Heflin address. The officers knew that the fugitive’s age, height, weight
and ethnicity. Purdy testified that they were looking for an Hispanic male “roughly in his mid
or late forties.” (Doc. # 47, Evid. Hrg Tr. at 75). Skillern testified that they were looking for
an Hispanic male of a “certain height and weight.” (Id. at 33). Hinkle was aware that the
fugitive they sought was a Honduran national whose last known address was the residence in
Heflin, Alabama. (Id. at 58).
Purdy also accessed the Department of Homeland Security’s Enforcement and Removal
Module (EARM) to secure a report on Alfaro-Aguilar. Alfaro-Aguilar’s EARM report indicated
6

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 7 of 10

that he was 48 years old, Honduran, and using a particular social security number.3 (Def’s Ex.
5) Purdy was aware that the officers in Atlanta had run a Clear report on Alfaro-Aguilar. (Doc.
# 8). Purdy ran the report to confirm the information provided to him by the officers in Atlanta.
The Clear report also confirmed the Heflin address as the last known address of an individual
using the same social security number as Alfaro-Aguilar. (Id.) Based on the objective facts,
the court concludes that the initial investigatory stop of the vehicle was not in violation of the
Fourth Amendment because the officers had reasonable suspicion, supported by specific,
articulable facts, to stop the driver of the vehicle for the purpose of identification. Hensley, 469
U.S. at 229 (holding that, “[w]here police have been unable to locate a person suspected of
involvement in a past crime, [they may] briefly stop that person, ask questions, or check
identification,”); see also Illinois v. Rodriguez, 497 U.S. 177, 186 (1990) (“[I]n order to satisfy
the ‘reasonableness’ requirement of the Fourth Amendment, what is generally demanded of the
many factual determinations that must regularly be made by agents of the government . . . is not
that they always be correct, but that they always be reasonable.”). This stop was reasonable.
B. Scope and Duration of the Investigatory Stop
Next, Gonzalez-Zea asserts that the duration of the stop was improperly extended once
Skillern determined that he was not the fugitive. When Skillern approached the vehicle, he
asked Gonzalez-Zea for identification. This he was clearly permitted to do. Skillern was
entitled to check Gonzalez-Zea’s identification “including questioning the driver . . ., requesting

3

In accordance with the E-Government Act of 2002, as amended on August 2, 2002, and M.D. Ala.
General Order No. 2:04mc3228, the court declines to reveal the personal identifier.

7

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 8 of 10

consent to search . . . and running a computer check for outstanding warrants.” United States
v. Simmons, 172 F.3d 775, 778 (11th Cir. 1999) (emphasis in original). “Mere questioning . .
. is neither a search nor a seizure.” United States v. Purcell, 236 F.3d 1274, 1279 (11th Cir.
2001).
Law enforcement officers do not violate the Fourth Amendment’s prohibition of
unreasonable seizures merely by approaching individuals on the street or in other
public places and putting questions to them if they are willing to listen. . . . Even
when law enforcement officers have no basis for suspecting a particular
individual, they may pose questions, ask for identification, and request consent
to search luggage – provided they doe not induce cooperation by coercive means.
United States v. Drayton, 536 U.S. 194, 201-02 (2002). See also, United States v. Baker, 290
F.3d 1276 (11th Cir. 2002). “Typically, . . . the officer may ask the detainee a moderate number
of questions to determine his identity and to try to obtain information confirming or dispelling
the officer’s suspicions. But the detainee is not obligated to respond.” Berkemer v. McCarty,
468 U.S. 420, 439 (1984).
When Gonzalez-Zea volunteered that he was in the country illegally, Skillern explained
that the officers were seeking a fugitive and asked Gonzalez-Zea for his assistance. GonzalezZea agreed to assist the officers and consented to a search of his residence. The unrebutted
evidence demonstrates that Skillern asked Gonzalez-Zea for his assistance and permission to
search his residence, and Gonzalez-Zea gave the officers consent. At that juncture, GonzalezZea’s consent fundamentally altered the nature of the encounter – from a brief investigatory stop
into a consensual encounter.

8

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 9 of 10

C. Search Subsequent to Investigatory Stop
In his motion to suppress, Gonzalez-Zea argues that his consent to the search of his
residence was coerced and not sufficiently attenuated from the improper traffic stop. At the
evidentiary hearing on the motion to suppress, the evidence clearly demonstrated and the court
finds that Skillern asked Gonzalez-Zea for permission to search his residence to locate the alien
fugitive, and Gonzalez-Zea consented to the search. The court finds that Gonzalez-Zea’s
consent to search was voluntary and not the product of any force or coercion. See generally
United States v. Desir, 257 F.3d 1233, 1236 (11th Cir. 2001). “A consensual search is
constitutional if it is voluntary; if it is the product of an “essentially free and unconstrained
choice.”” Purcell, 236 F.3d at 1281. See also Acosta, 363 F.3d at 1151. When the officers
searched the bedroom of the residence, they observed in plain view two firearms. “A
consensual search is manifestly reasonable so long as it remains within the scope of the
consent.” United States v. Martinez, 949 F.2d 1117, 1119 (11th Cir. 1992).
CONCLUSION
For the reasons as stated, the court finds that the defendant’s constitutional rights were
not violated, and it is the RECOMMENDATION of the Magistrate Judge that the defendant’s
motion to suppress (doc. # 28) be DENIED. It is further
ORDERED that the parties shall file any objections to the said Recommendation on or
before August 2, 2018. A party must specifically identify the factual findings and legal
conclusions in the Recommendation to which objection is made; frivolous, conclusive, or
general objections will not be considered. Failure to file written objections to the Magistrate
9

Case 3:17-cr-00444-WKW-WC Document 56 Filed 07/19/18 Page 10 of 10

Judge’s findings and recommendations in accordance with the provisions of 28 U.S.C. §
636(b)(1) shall bar a party from a de novo determination by the District Court of legal and
factual issues covered in the Recommendation and waives the right of the party to challenge on
appeal the district court’s order based on unobjected-to factual and legal conclusions accepted
or adopted by the District Court except upon grounds of plain error or manifest injustice.
Nettles v. Wainwright, 677 F.2d 404 (5th Cir. 1982); 11TH CIR. R. 3-1. See Stein v. Lanning
Securities, Inc., 667 F.2d 33 (11th Cir. 1982). See also Bonner v. City of Prichard, 661 F.2d
1206 (11th Cir. 1981) (en banc).
Done this 19th day of July, 2018.

/s/Charles S. Coody
CHARLES S. COODY
UNITED STATES MAGISTRATE JUDGE

10

